Record Press Inc., 229 West 36th Street, New York, N.Y. 1001 B•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK,
SS:
COUNTY OF NEW YORK

79561

AFFIDAVIT OF SERVICE

]

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 4th day of September 2019 deponent served 3 copies of the within
PETITION FOR WRIT OF CERTIORARI

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

David L Finger, Esq.
Finger & Slanina, LLC
1201 N Orange Street
One Commerce Center, 7th Floor
Wilmington, DE 19801
(302) 573-2525
dfinger@delawgroup.com
Attorney for James R. Adams

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on September 4, 2019, pursuant to Supreme
Court Rule 29.5[c). All parties required to be served, have been served.

dkd~ t/J
Howard Daniels

Sworn to me this
September 4, 201 8
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Commission Expires November 1 D. 2019

Case Name: Governor of Delaware v. Adams

Docket No. - - - - -

